        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
Technology Transfer and
Commercialization Efforts at the
Department of Energy's National
Laboratories




OAS-M-14-02                    February 2014
                                   Department of Energy
                                     Washington, DC 20585
                                         February 14, 2014


MEMORANDUM FOR THE DEPUTY UNDER SECRETARY FOR SCIENCE AND ENERGY


FROM:                    Rickey R. Hass
                         Deputy Inspector General
                           for Audits and Inspections
                         Office of Inspector General
SUBJECT:                 INFORMATION: Audit Report on "Technology Transfer and
                         Commercialization Efforts at the Department of Energy's National
                         Laboratories"
BACKGROUND
The Department of Energy National Competitiveness Technology Transfer Act of 1989 established
technology transfer as a mission of Federal research and development agencies, including the
Department of Energy (Department). The Department has since encouraged its national
laboratories to enter into technology partnering activities with non-Federal entities and has
authorized its facilities to patent and license intellectual property that may arise from research and
development activities.
In August 2005, Congress enacted the Energy Policy Act of 2005 that included several
requirements related to the Department's management of technology transfer. Under the Energy
Policy Act of 2005, the Department was required to appoint a Technology Transfer Coordinator to
be the principal advisor to the Secretary of Energy on all matters related to technology transfer and
commercialization. Further, the legislation required that a percentage of the Department's applied
energy budget be used to establish an Energy Technology Commercialization Fund
(Commercialization Fund). The Commercialization Fund should provide matching funds with
private partners to promote promising energy technologies for commercial purposes. Finally, the
Department was directed to submit a technology transfer execution plan (Execution Plan) to
Congress in February 2006, and then annually thereafter describing progress toward meeting goals
and how funds were expended.
The October 2011 Presidential Memorandum on Accelerating Technology Transfer and
Commercialization of Federal Research in Support of High-Growth Businesses committed each
executive department and agency that conducts research and development to improve results from
its technology transfer and commercialization activities. Due to the significant emphasis placed on
the effectiveness of transferring technology to the private sector, we initiated this audit to
determine whether the Department is effectively managing its technology transfer and
commercialization efforts at its national laboratories.

RESULTS OF AUDIT

Our review revealed opportunities to improve the effectiveness of the Department's management
of its technology transfer and commercialization efforts. Specifically, we found that the
Department had not:
                                                 2

    • Finalized quantitative performance metrics necessary for it to determine the success of its
      technology transfer and commercialization efforts. In particular, the Department had not
      finalized and submitted its Execution Plan to Congress as required under the Energy Policy
      Act of 2005. While the Department prepared a draft Execution Plan containing quantitative
      metrics, which we were told would be used by the Technology Transfer Coordinator to
      measure Department-wide performance, it had not finalized or submitted the Execution
      Plan to Congress at the time of our review. The Execution Plan was due to Congress in
      February 2006 and was more than 7 years late at the time of our review.

    • Developed a forward-looking approach for investing the Commercialization Fund required
      by the Energy Policy Act of 2005. Instead of identifying and directing funds for the
      Commercialization Fund to the achievement of specified goals, the Department deployed a
      retrospective approach. This approach totaled the matching funds that had been provided
      during the year on cooperative research projects individually funded by program offices to
      ensure that the total value of investments met the minimum required under the law. The
      Department took this approach despite being advised by its Office of General Counsel that
      such an "after the fact" approach, although legally defensible, did not sufficiently
      implement Congressional intent. Further, we found that the Department could not
      demonstrate that it had implemented a forward-looking approach to enhance the
      effectiveness of the Department's expenditures in commercialization, despite Secretarial
      direction to do so in March 2011.

    • Ensured the national laboratories were consistently treating their equity holdings in
      licensees received as part of their technology transfer efforts. The laboratories are to share
      in the proceeds when equity holdings are liquidated and the proceeds are to be used to
      further the mission of the laboratories. Yet, we noted that the contractors running the
      Department's laboratories did not consistently account for and report their equity interests
      to the Department. Only 2 of the 11 sites recorded the value of their holdings: Argonne
      National Laboratory with $3.9 million in holdings and Y-12 National Security Complex
      with holdings of only limited value.

Due to turnover in key staff, we were unable to definitively determine why the Department had
failed to finalize and transmit its Execution Plan to Congress. Officials stated that the Department
had engaged in an extensive concurrence process in preparing the Execution Plan, and that the
previous Technology Transfer Coordinator was focused on multiple projects to advance the
Department's technology transfer efforts. However, officials could provide no reasonable
explanation as to why the Department was over 7 years delinquent in finalizing its Execution Plan.
Similarly, we could not definitively determine why the Department had not implemented a
forward-looking process for its Commercialization Fund over 2 years after being directed to do so
by the former Secretary. We were told that the personnel involved with these decisions were no
longer employed by the Department and officials we contacted were unable to provide
documentation on what was accomplished. Given the elapsed time, we could only conclude that
completion of these actions lacked priority and urgency within the Department.

As for equity holdings, we found that the Department had not provided guidance to the national
laboratories in this area. For example, the Department's Financial Management Handbook did not
contain direction for the treatment of equity holdings. In fact, the Department officials we spoke
to were unaware of the existence of or the extent of equity being received by the laboratories.
                                                 3

In the absence of finalized performance metrics and forward looking budgets, the Department is at
increased risk of failing to maximize its return on investment of limited technology transfer and
commercialization funds. As such, the Department cannot be assured that it is directing funding to
the technology transfer and commercialization opportunities that most closely meet national and
Departmental needs in the absence of stated performance metrics. The Department also put itself
at risk for not complying with spending requirements and meeting Congressional intent. Finally,
as a result of the inconsistent treatment of equity holdings, the Department was not aware of the
magnitude of the equity held by facilities in their licensees, information that would be valuable in
ensuring that the proceeds of equity holdings are used to advance Department objectives and in
demonstrating the benefits of its technology transfer and commercialization efforts.

We made several recommendations that, if implemented, should help improve the Department's
technology transfer program.

MANAGEMENT REACTION

Management concurred with the report's recommendations and identified planned actions to
address our recommendations. We consider management's comments responsive to the report's
recommendations. Management comments are included in Appendix 3.

Attachment

cc:   Deputy Secretary
      Acting Under Secretary for Nuclear Security
      Chief of Staff
      Director, Office of Management
      General Counsel
REPORT ON TECHNOLOGY TRANSFER AND COMMERCIALIZATION
EFFORTS AT THE DEPARTMENT OF ENERGY'S NATIONAL
LABORATORIES

TABLE OF
CONTENTS


Technology Transfer and Commercialization Efforts

Details of Finding ......................................................................................................................1

Recommendations ......................................................................................................................6

Management Response and Auditor Comments ........................................................................6


Appendices

1. Objective, Scope and Methodology .....................................................................................7

2. Related Audit Reports ..........................................................................................................9

3. Management Comments ....................................................................................................10
TECHNOLOGY TRANSFER AND COMMERCIALIZATION EFFORTS AT
THE DEPARTMENT OF ENERGY'S NATIONAL LABORATORIES
Background

The Department of Energy National Competitiveness Technology Transfer Act of 1989
established technology transfer as a mission of Federal research and development agencies,
including the Department of Energy (Department). The Department has since encouraged its
national laboratories to enter into technology partnering activities with non-Federal entities and
has authorized its facility contractors to patent and license intellectual property that may arise
from research and development activities.

In August 2005, Congress enacted the Energy Policy Act of 2005 that included several
requirements related to the Department's management of technology transfer. The Department
was required to appoint a Technology Transfer Coordinator to be the principal advisor to the
Secretary of Energy on all matters related to technology transfer and commercialization. The
Department was also required to establish an Energy Technology Commercialization Fund
(Commercialization Fund) using 0.9 percent of the amount made available to the Department for
applied energy research, development, demonstration, and commercial application for each fiscal
year. This Fund was to be used to provide matching funds with private partners to promote
promising energy technologies for commercial purposes. Finally, the Department was directed
to submit a technology transfer execution plan (Execution Plan), complete with goals, to
Congress by February 2006. The Execution Plan was to be updated annually to describe
progress toward meeting goals and the funds expended.

The President announced the Startup America initiative in January 2011. This initiative called
on both the Federal government and the private sector to dramatically increase the prevalence
and success of entrepreneurs across the country. Following Startup America, in October 2011,
Presidential Memorandum, Accelerating Technology Transfer and Commercialization of Federal
Research in Support of High-Growth Businesses, committed each executive department and
agency that conducts research and development to improve the results from its technology
transfer and commercialization activities. The memorandum required agencies with Federal
laboratories to develop plans that establish performance goals to increase the number and pace of
effective technology transfer and commercialization activities in partnership with non-Federal
entities, including private firms, research organizations, and non-profit entities. In a number of
documents, the Department has published broadly stated goals for its technology transfer efforts
including ensuring "robust" technology transfer activities and research partnerships with industry
resulting in commercialization, direct involvement from innovators at Department facilities, and
fairness of opportunity among others.

Technology Transfer and Commercialization Efforts

Our review revealed opportunities to improve the effectiveness of the Department's management
of its technology transfer and commercialization efforts. In particular, we found that the
Department had not finalized the quantitative metrics against which performance of technology
transfer and commercialization efforts would be measured. Additionally, we found that the
Department had not implemented a forward-looking budget that prioritized needs for the



Page 1                                                                          Details of Finding
mandated Commercialization Fund. Finally, we found that the national laboratories lacked
consistency in the treatment of equity holdings in licensees received as part of the technology
transfer and commercialization efforts, although the laboratories share in the proceeds when the
equity is sold.

                     Execution Plan and Quantitative Metrics Not Finalized

The Department had not finalized quantitative metrics against which performance of technology
transfer and commercialization efforts would be measured. As previously mentioned, the Energy
Policy Act of 2005 required the Department to submit the Execution Plan to Congress by
February 2006, with annual updates thereafter. Although it had submitted a draft Execution Plan
to the Office of Management and Budget for review, as of October 2013, the Department had not
submitted the required report to Congress containing the performance metrics for technology
transfer and commercialization.

According to the Department's former Technology Transfer Coordinator, the draft Execution
Plan contained proposed metrics to evaluate Department-wide performance on technology
transfer and commercialization efforts. The proposed metrics were developed with guidance
from the 2011 Presidential Memorandum. However, the Department has not used the draft
metrics to measure the performance of its technology transfer and commercialization efforts. In
addition, an Office of General Counsel official stated that the metrics may be revised and new
metrics selected. Further, although the Department collects technology transfer statistics from its
laboratories, Department officials stated that it had not selected which statistics would be used as
metrics to evaluate Department-wide performance toward meeting its goals.

In the absence of quantifiable metrics, the Department is unable to effectively measure the
performance of its ongoing technology transfer and commercialization efforts. In response to
Startup America, the Department had instituted the America's Next Top Energy Innovator
initiative, in which Department laboratories reduced upfront fees traditionally charged to
businesses wishing to license patents. The Department also developed an internet site to
disseminate the availability of laboratory technologies and instituted policies to reduce licensing
processing times. The national laboratories also changed processes to expand commercialization
of their inventions. Several laboratories instituted technology maturation programs, in which
laboratory licensing income was used to continue work on promising technologies that no longer
received Departmental funding but were not advanced enough to license. Although these
technology transfer and commercialization initiatives are noteworthy, the Department cannot
determine the efficacy of these initiatives without developed performance metrics.

                                     Long-standing Concern

The Department's lack of performance measures for its technology transfer and
commercialization efforts is a long-standing concern. Specifically, in 2009, the U.S.
Government Accountability Office's (GAO) report, Technology Transfer, Clearer Priorities and
Greater Use of Innovation Approaches Could Increase the Effectiveness of Technology Transfer
at Department of Energy Laboratories (GAO-09-548, June 2009), found that the Department had



Page 2                                                                         Details of Finding
neither established an overall strategy nor collected reliable data it needed to monitor the
progress and effectiveness of its technology transfer efforts. In particular, GAO concluded that
"[The Department's] lack of overarching goals—including a consensus on what activities
constitute technology transfer—and reliable performance data have left [the Department]
laboratories and program offices to chart their own course, often with mixed results."

Unless the Department develops performance metrics for its technology transfer and
commercialization efforts, it is at increased risk of collecting incomplete performance data,
further limiting its ability to measure the efficacy of such efforts.

                                     Commercialization Fund

The Department did not plan how it intended to meet the spending requirements of the
Commercialization Fund. Specifically, the Department did not review its applied energy budgets
and calculate how much it needed in the Commercialization Fund or how it intended to spend the
Commercialization Fund each year. Instead, the Department captured the matching funding the
laboratories and facilities provided to private partners in cooperative research projects under
Cooperative Research and Development Agreements (CRADAs) to ensure the Department had
spent at least the minimum amount mandated by law for the Commercialization Fund. Although
the Department reported that it had met the minimum spending required by the Energy Policy
Act of 2005 for Fiscal Years 2008 through 2012, this retrospective approach of totaling the
matching funds provided under CRADAs after year-end did not demonstrate any planning or
foresight into how the spending should be accomplished. In fact, the Department's Office of
General Counsel expressed this very concern.

In March 2011, the Acting General Counsel expressed concerns that the retrospective approach
did not sufficiently implement the Congressional intent of the Energy Policy Act of 2005 and
recommended a forward-looking approach to planning for and executing spending. This
proposal was supported by the former Secretary of Energy. Accordingly, a Secretarial Policy
Determination proclaimed that, effective immediately, the Department should take a more
forward-looking approach to implementing the Commercialization Fund to enhance the
effectiveness of the Department's expenditures. The Secretarial Policy Determination required
the Under Secretaries of Energy, Science, and Nuclear Security to review the budgets, determine
the amount of funds subject to the 0.9 percent requirement, and designate funding for
commercialization efforts. However, after our discussions with Headquarters' personnel who
were unable to provide documentation, we concluded that the Department had not implemented
this forward-looking approach at the time of our review. In our opinion, without a forward-
looking approach, the Department cannot ensure that it has established technology transfer and
commercialization priorities for the Commercialization Fund and directed funding towards those
priorities.

                                         Equity Holdings

Equity interests resulting from technology transfer and commercialization efforts were not
consistently reported and accounted for by the Department's national laboratories. The
Department's Secretarial Policy Statement on Technology Transfer, issued in January 2008, and

Page 3                                                                         Details of Finding
the America's Next Top Energy Innovator initiative anticipated that the Department's laboratories
would accept equity holdings in licensees as part of their technology transfer and
commercialization activities. We found that 13 of the 16 sites we surveyed had accepted equity
from licensees, although 2 of these facilities no longer held equity interests at the time of our
review. We found that the Department laboratories treated the equity holdings differently. In
most cases, the parent companies to the management and operating contractors running the
Department laboratories held the equity. This means that the equity holdings were not accounted
for or reported on the laboratory accounting records, records that are integrated with the
Department's accounting records. This is a concern because the laboratories are to share in
proceeds when the equity is liquidated and the proceeds are to be used to further the mission of
the laboratories. We found that only 2 of the 11 sites with equity holdings, Argonne National
Laboratory and the Y-12 Nuclear Security Complex, recorded their equity holdings on the
laboratory accounting records. Argonne National Laboratory's equity holdings were valued at
$3.9 million, but the Y-12 Nuclear Security Complex's had only limited value.

Furthermore, Department laboratories did not consistently report the extent of their equity
holdings. Of the 11 sites with equity holdings, 4 provided annual reports to the Site Offices,
4 provided them on request, and 3 did not report on equity holdings at all. Finally, we noted five
sites determined the monetary value of the equity held, but six did not attempt to make such a
determination. One site, for instance, claimed the equity holdings could not be valued because
the holdings were "illiquid," meaning the equity interest cannot easily be sold or exchanged for
cash.

Departmental Priorities

Due to turnover in key staff, we were unable to definitively determine why the Department had
failed to finalize and transmit its Execution Plan to Congress. Officials stated that the
Department had engaged in an extensive concurrence process in preparing the Execution Plan,
and that the previous Technology Transfer Coordinator was focused on multiple projects to
advance the Department's technology transfer and commercialization efforts. However, officials
could not provide a reasonable explanation as to why the Department was over 7 years
delinquent in finalizing its Execution Plan. Similarly, we could not definitively determine why
the Department had not implemented a forward-looking process for its Commercialization Fund
over 2 years after being directed to do so by the former Secretary. We were told that the
personnel involved with these decisions were no longer employed by the Department and
officials we contacted were unable to provide documentation on what was accomplished. Given
the elapsed time, we could only conclude that completion of these actions lacked priority and
urgency within the Department.

Finally, although promoted as a means to increase technology transfer, the Department had not
provided guidance on how to handle equity holdings. While the Assistant General Counsel for
Technology Transfer and Intellectual Property knew that the contractors were accepting equity
holdings, he did not know how common the practice was or the extent of the holdings.
According to a Department official, the guidance related to equity holdings was provided in the
laboratory contracts; however, this language primarily related to conflict of interest disclosures.
We also reviewed the Department's Financial Management Handbook for direction on how to

Page 4                                                                          Details of Finding
account for various types of assets, but found no guidance on the treatment of equity holdings.
In fact, the Office of the Chief Financial Officer personnel we spoke to were unaware that the
contractors were receiving equity holdings from their licensees as part of their technology
transfer and commercialization activities. Accordingly, we concluded that the Department never
issued guidance for accounting and reporting equity holdings to the Department.

Impact on Technology Transfer Efforts

In the absence of finalized performance metrics and forward looking budgets, the Department is
at increased risk of failing to maximize its return on investment of limited technology transfer
and commercialization funds. Specifically, the Department cannot be assured that it is directing
funding to the technology transfer and commercialization opportunities that most closely meet
national and Departmental needs.

While not in the draft performance metrics being proposed, the Department's technology transfer
and commercialization statistics for Fiscal Years 2010 through 2012 did not show substantial
increases in technology transfer and commercialization activities. For example, the
Departmental initiatives in this area had not resulted in a substantial number of licensed
technologies. We generally agree that it is difficult to isolate the effects of other factors, such as
general economic conditions, which may have affected the ability of the laboratories to license
their inventions. We also agree with the Department's view that no single statistic can
appropriately measure effectiveness in commercialization of intellectual property. However, as
the Department has stated in the draft Execution Plan, "Although it is unlikely that the chosen
metrics will capture a complete picture of the effectiveness of the technology transfer program,
they will serve as a guide to help the [Department] complex meet the goals and objective set
forth in this report." It is therefore vital that the Department finalize the quantitative metrics,
establish targets to serve as expectations, disseminate the metrics to the Department's
laboratories, and utilize the results to help meet the established goals and objectives for
improving its technology transfer and commercialization efforts.

Additionally, as a result of the retrospective approach to meeting the Commercialization Fund
requirement, the Department put itself at risk for not complying with spending requirements and
meeting the Congressional intent of the Energy Policy Act of 2005. Further, the Department was
not in a position to plan how best to expend its matching funds, such as taking into consideration
alternative technology transfer and commercialization methods.

Finally, the lack of a policy concerning equity holdings has led to inconsistent treatment of such
holdings among the Department's facilities. Due to this inconsistent treatment, the Department
was not aware of the magnitude of the equity held by facilities in their licensees, information that
would be valuable in ensuring that the proceeds of equity holdings are used to advance
Department objectives and in demonstrating the benefits of its technology transfer and
commercialization efforts.




Page 5                                                                           Details of Finding
RECOMMENDATIONS

To address the issues noted in this report and ensure that the Department can better evaluate its
performance in technology transfer and commercialization, we recommend that the Deputy
Under Secretary for Science and Energy appoint a Technology Transfer Coordinator, or delegate
the responsibilities of the position, and task the position to:

    1. Finalize the statutorily required Technology Transfer Execution Plan, which includes
       quantitative performance metrics to be used to evaluate laboratory technology transfer
       and commercialization activities, and direct the laboratories to provide statistics that are
       necessary for the performance metrics;

    2. Develop and implement a forward-looking approach to plan and execute the Energy
       Technology Commercialization Fund, as stated in the Secretarial Policy Determination
       on the Energy Technology Commercialization Fund and

    3. Provide guidance for the treatment of licensee equity held by the laboratories and by their
       contractors.

MANAGEMENT RESPONSE

Management concurred with the report's recommendations and planned corrective actions that
responded to the issues identified in our report. Management agreed that finalizing the
Execution Plan is essential to the success of the Department's technology transfer activities. The
Department will continue work on the draft Execution Plan to resolve issues and expects to
finalize it once a new Technology Transfer Coordinator is hired, which is a high priority. The
finalized Execution Plan will include any necessary performance metrics critical to assessing
progress toward national and Departmental goals. Furthermore, management stated that the
development of a forward-looking approach to the Energy Technology Commercialization Fund
and guidance regarding the treatment of licensee equity will be high priority goals for the new
Technology Transfer Coordinator.

AUDITOR COMMENTS

Management's comments and planned actions were responsive to our recommendations.
Management comments are included in Appendix 3.




Page 6               Recommendations, Management Response and Auditor Comments
Appendix 1

                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine whether the Department of Energy (Department)
was effectively managing its technology transfer and commercialization efforts at its national
laboratories.

SCOPE

We conducted the audit from April 2013 through January 2014. We visited the National
Renewable Energy Laboratory in Golden, Colorado and Argonne National Laboratory in
Argonne, Illinois. Additionally, we held discussions with Headquarter officials located in
Washington, DC. The scope of the audit centered on technology transfer activities during Fiscal
Years 2008 through 2013. The audit was conducted under Office of Inspector General Project
Number A13CH027.

METHODOLOGY

To accomplish our audit objective, we:

    • Obtained and reviewed relevant laws and regulations related to technology transfer and
      commercialization activities.

    • Reviewed prior Office of Inspector General and U.S. Government Accountability Office
      reports.

    • Interviewed key personnel from Department's Program Offices and the Office of General
      Counsel.

    • Held discussions with Departmental personnel at the Argonne Site Office and the Golden
      Field Office.

    • Selected 2 sites, National Renewable Energy Laboratory and Argonne National
      Laboratory, out of 21 sites to visit based on total number of active licenses, total new
      licenses, and licensing income. Questionnaires were sent to an additional 14 Department
      sites that conduct technology transfer activities.

   •   Judgmentally selected and reviewed a sample of licensing agreements at both National
       Renewable Energy Laboratory and Argonne National Laboratory. We selected 20
       revenue producing licenses for review at each site for a total of 40 licenses based on
       attributes, such as the dollar amount of payment, type of licensee (large and small
       businesses), and equity interests in the licensee. License files were reviewed for
       documentation of fairness of opportunity, conflict of interest disclosure statements, and
       other contractual requirements. We also examined the payments received to determine


Page 7                                                    Objective, Scope and Methodology
Appendix 1 (continued)

       whether revenues were accounted for and distributed as required. Because we did not
       select a statistical sample, we cannot project our results to the population.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Accordingly, we assessed
significant internal controls and compliance with laws and regulations necessary to satisfy the
audit objective. In particular, we assessed the implementation of the GPRA Modernization Act of
2010 and found that the Department had not established Department-wide performance measures
related to technology transfer; however, the laboratories we visited had site specific performance
measures related to technology transfer. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the time of
our audit. Finally, we conducted an assessment of computer-processed data relevant to our audit
objective and found it to be reliable.

Management waived an exit conference.




Page 8                                                    Objective, Scope and Methodology
Appendix 2

                               RELATED AUDIT REPORTS

Office of Inspector General Reports

    • Review Report on Special Report on Allegations of Conflict of Interest Regarding
      Licensing of PROTECT by Argonne National Laboratory (DOE/IG-0819, August 2009).
      This review was prompted by an allegation of inadequate competition, fairness of
      opportunity, and conflicts of interest on the part of Argonne National Laboratory in the
      exclusive licensing of a specific technology. The review found that despite a contractual
      requirement that it provide fairness of opportunity in its licensing activities, Argonne
      National Laboratory did not list the licensing opportunity on its web site and instead
      relied only on personal knowledge of Argonne National Laboratory employees when
      deciding what firms would be provided the opportunity to compete for the exclusive
      license. The review also found that conflict of interest mitigation measures were not
      applied and, despite complaints it received regarding the licensing agreement, Argonne
      National Laboratory did not involve its technology transfer ombudsman to resolve the
      dispute.

    • Audit Report on Management Controls over Patent and Royalty Income at Ames
      Laboratory (OAS-M-05-05, May 2005). The audit disclosed that Ames Laboratory had
      not adequately controlled and accounted for patent and royalty revenues, nor expended
      such funds to further research, technology transfer, and education. As a result,
      approximately $3.5 million generated by technology transfer was at greater risk of loss
      and of not being productively used.

    • Audit Report on Management Controls over the Technology Transfer and
      Commercialization Program at the Idaho National Laboratory (OAS-M-05-07, June
      2005). This audit found that the contractor at Idaho National Laboratory had not
      established proper financial controls over royalty income from its licensing activities and
      had not properly tracked costs of technology transfer to ensure the Idaho National
      Laboratory 's spending did not exceed contractual limits.

Government Accountability Office Report

    • Report on Technology Transfer, Clearer Priorities and Greater Use of Innovation
      Approaches Could Increase the Effectiveness of Technology Transfer at Department of
      Energy Laboratories (GAO-09-548, June 2009). This review determined that the
      Department of Energy was not able to determine the effectiveness of its technology
      transfer activities because it had not established Department-wide goals for technology
      transfer and lacked reliable performance data. The report indicated that technology
      transfer activities were not well-defined and, without a clear definition, the extent of
      technology transfer could not be accurately measured. Additionally, goals for technology
      transfer, although required by the Energy Policy Act of 2005, had not been established
      Department-wide and although many laboratories had established their own goals, they
      varied widely.


Page 9                                                                  Related Audit Reports
Appendix 3

             MANAGEMENT COMMENTS




Page 10                            Management Comments
Appendix 3 (continued)




Page 11                  Management Comments
                                                                    IG Report No. OAS-M-14-02

                             CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1.   What additional background information about the selection, scheduling, scope, or
          procedures of the audit or inspection would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report that would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer
friendly and cost effective as possible. Therefore, this report will be available electronically
through the Internet at the following address:

             U.S. Department of Energy Office of Inspector General Home Page
                                      http://energy.gov/ig


Your comments would be appreciated and can be provided on the Customer Response Form.
